NO. ____________
IN THE UNITED STATES SUPREME COURT
_________________ TERM
__________________________________________________________
OSCAR GUEVARA SALAMANCA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________________________________________________
APPENDIX
__________________________________________________________
Erin P. Rust
Assistant Federal Defender
FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INC.
835 Georgia Avenue, Suite 600
Chattanooga, Tennessee 37402
(423) 756-4349
Attorney for Mr. Guevara Salamanca

United States v. Salamanca, 821 Fed.Appx. 584 (2020)

821 Fed.Appx. 584
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 6th Cir. Rule 32.1.
United States Court of Appeals, Sixth Circuit.

West Headnotes (3)
[1]

Sentencing and Punishment

District court did not plainly err by enhancing
defendant's sentence for illegal reentry from a
guidelines range of 70 to 87 months to 130
months imprisonment; while the enhancement
was based on an old conviction and suspension
of probation in South Carolina, which was
conducted in the absence of defendant and
without assistance of counsel, in violation
of due process under South Carolina law,
a violation of defendant's due-process rights
was not something that could be remedied at
sentencing for another offense, and because
the state judgment had not been set aside, it
was presumptively valid, and could be used to
enhance a federal sentence. U.S. Const. Amends.
6, 14; Immigration and Nationality Act § 276,

UNITED STATES of America, Plaintiff-Appellee,
v.
Oscar Guevara SALAMANCA, Defendant-Appellant.
Case No. 19-5746
|
FILED August 03, 2020
Synopsis
Background: Defendant was convicted in the United States
District Court for the Eastern District of Tennessee, Thomas
W. Phillips, Senior District Judge, of illegal reentry, and
sentenced to 130-months imprisonment based on an old
conviction and suspension of probation in South Carolina for
grand larceny. Defendant appealed.

8 U.S.C.A. §§ 1326(a),

[2]

1326(b)(2).

Sentencing and Punishment
counsel

[1] District Court did not plainly err by enhancing defendant's
sentence for illegal reentry from a guidelines range of 70 to
87 months to 130 months imprisonment;
[2] defendant was not unconstitutionally deprived of his right
to counsel when South Carolina court revoked his probation
in absentia; and

[3]

Aliens, Immigration, and
Citizenship
Sentencing and punishment
Sentencing and Punishment
Offenses, Charges, Misconduct

Affirmed.
Stranch, Circuit Judge, filed a dissenting opinion.
Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection.

Assistance of

Defendant was not unconstitutionally deprived
of his right to counsel when South Carolina
court revoked his probation in absentia;
defendant admitted to violating his probation by
pleading guilty to burglary in Virginia, and his
argument that counsel could have advocated for
substantially less time at a revocation hearing
was not enough to suggest he had a colorable,
complicated argument for which counsel was
needed. U.S. Const. Amend. 6.

Holdings: The Court of Appeals, McKeague, Senior Circuit
Judge, held that:

[3] District Court did not rely on an impermissible factor
in imposing a low-end guidelines sentence of 130 months
imprisonment for illegal reentry.

Criminal Law

Other

District court did not rely on an impermissible
factor in imposing a low-end guidelines sentence
of 130 months imprisonment for illegal reentry,
where the sentence was calculated using prior
convictions and sentences that were not invalid.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1App. 2

United States v. Salamanca, 821 Fed.Appx. 584 (2020)

Immigration and Nationality Act § 276,
U.S.C.A. §§ 1326(a),
U.S.C.A. § 3553(a);

1326(b)(2);

8
18

U.S.S.G. § 4A1.1(a).

*585 ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE EASTERN DISTRICT OF
TENNESSEE
Attorneys and Law Firms
William A. Roach, Jr., Brian Samuelson, Assistant U.S.
Attorney, Office of the U.S. Attorney, Knoxville, TN, for
Plaintiff-Appellee
Erin P. Rust, Assistant Federal Public Defender, Federal
Defender Services, Chattanooga, TN, for DefendantAppellant
BEFORE: GIBBONS, McKEAGUE, and STRANCH,
Circuit Judges.

OPINION
McKEAGUE, Circuit Judge.
District courts calculate advisory sentencing ranges under the
United States *586 Sentencing Guidelines by comparing
a defendant's “base offense level” to his “criminal history
category.” A defendant's prior conviction will sometimes
enhance both of those variables, resulting in a higher
sentencing range. That is what happened in Oscar Guevara
Salamanca's case. His sentence for an immigration offense,
8 U.S.C. § 1326(a) and
(b)(2), might have been in
the range of 70 to 87 months’ imprisonment but for an old
conviction and suspended sentence of probation in South
Carolina for grand larceny. With that conviction added to the
mix, his range jumped to 130 to 162 months’ imprisonment.
Guidelines calculations can get complicated. Suffice it to
say that Salamanca's South Carolina conviction counted
because, within the relevant window of time for sentencecalculation purposes, a South Carolina court revoked his
probation for pleading guilty to burglary in Virginia. Without
the revocation, the lower sentencing range of 70 to 87 months’
imprisonment would have applied.

Salamanca argued for a sentence lower than 130 months’
imprisonment, pointing to among other things the age of
his South Carolina conviction and probation revocation. The
district court addressed Salamanca's arguments but, in the
end, was not swayed; it imposed a 130-month sentence.
Salamanca had no further objections at sentencing.
[1] But now, Salamanca attacks the validity of his
probation revocation. He argues the South Carolina court
unconstitutionally revoked his probation in his absence and
without the assistance of counsel. And because the revocation
was unconstitutional, it should not have been included in
his guidelines calculation. Thus, Salamanca says, the district
court should have sentenced him using the lower range of 70
to 87 months’ imprisonment.
Despite his invocation of the Constitution, we review
Salamanca's claim for plain error because he presents it for
the first time on appeal.
United States v. Barton, 455
F.3d 649, 652 (6th Cir. 2006). To succeed, Salamanca must
identify a district court “(1) error (2) that was obvious or clear,
(3) that affected [his] substantial rights and (4) that affected
the fairness, integrity, or public reputation of the judicial
proceedings.” United States v. Crawford, 943 F.3d 297, 308
(6th Cir. 2019) (quotation omitted). “[O]nly in exceptional
circumstances” will these four factors be met.
United
States v. Vonner, 516 F.3d 382, 386 (6th Cir. 2008) (en banc)
(alteration in original) (quotation omitted).
We discern no obvious or clear error here. The government
does not contest that Salamanca's probation was revoked
in his absence. That was no doubt a violation of his right
to due process under the Constitution; when revocation is
discretionary, as it is in South Carolina, probationers are
entitled to an opportunity to be heard. See
Black v.
Romano, 471 U.S. 606, 611, 105 S.Ct. 2254, 85 L.Ed.2d
636 (1985);

Morrissey v. Brewer, 408 U.S. 471, 488, 92

S.Ct. 2593, 33 L.Ed.2d 484 (1972);
Sneed v. Donahue,
993 F.2d 1239, 1243–44 (6th Cir. 1993). But a violation of
a probationer's due-process rights, while unacceptable, is not
something federal courts can remedy at sentencing for another
offense. A state criminal judgment that has not been set aside,
like the revocation at issue here, is “presumptively valid and
may be used to enhance [a] federal sentence.”
Daniels
v. United States, 532 U.S. 374, 382, 121 S.Ct. 1578, 149
L.Ed.2d 590 (2001). It may be collaterally attacked at

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2App. 3

United States v. Salamanca, 821 Fed.Appx. 584 (2020)

federal sentencing only if the state procured that judgment in
Gideon
violation of the defendant's right to counsel under
v. Wainwright, 372 U.S. 335, 83 S.Ct. 792, 9 L.Ed.2d 799
(1963). See
*587 Custis v. United States, 511 U.S. 485,
496–97, 114 S.Ct. 1732, 128 L.Ed.2d 517 (1994). “No other
constitutional challenge to a prior conviction may be raised
in the sentencing forum.”

Daniels, 532 U.S. at 382, 121

Lackawanna Cty. Dist. Att'y v. Coss, 532
S.Ct. 1578; see
U.S. 394, 403–05, 121 S.Ct. 1567, 149 L.Ed.2d 608 (2001);
Custis, 511 U.S. at 496–97, 114 S.Ct. 1732.
[2] Salamanca thus emphasizes that he was deprived of
counsel when the South Carolina court revoked his probation
in absentia. The problem with this argument is that
probationers generally do not have a constitutional right to
Penn. Bd. of Prob. & Parole v. Scott, 524 U.S.
counsel.
357, 365 n.5, 118 S.Ct. 2014, 141 L.Ed.2d 344 (1998).
The right to counsel that probationers may claim in special
circumstances stems from
Gagnon v. Scarpelli, 411 U.S.
778, 93 S.Ct. 1756, 36 L.Ed.2d 656 (1973), rather than
Gideon. We recognize there is some tension in our court's
unpublished decisions as to whether
Custis might tolerate
collateral review of denial-of-counsel claims not premised
on
Gideon at sentencing. Compare United States v.
McAllister, 491 F. App'x 569, 578 (6th Cir. 2012) (concluding
Custis does not permit
Scarpelli claims at sentencing),
with United States v. Robertson, 40 F. App'x 933, 940 (6th
Cir. 2002) (permitting a collateral attack at sentencing based
on
In re Gault, 387 U.S. 1, 87 S.Ct. 1428, 18 L.Ed.2d
527 (1967), which established a right to counsel in juvenile
delinquency proceedings). We need not resolve this tension,
however, because even if

Custis permits a defendant to

raise a collateral attack based on
Scarpelli at sentencing,
Salamanca has not shown he was unconstitutionally deprived
of counsel—much less plainly so.
Scarpelli requires a probationer asserting a right to counsel
to colorably claim either that (1) he did not violate his
probation or (2) revocation is unwarranted due to “substantial
reasons” justifying or mitigating the violation and that those
reasons “are complex or otherwise difficult to develop or
present.”

Scarpelli, 411 U.S. at 790, 93 S.Ct. 1756.

Neither before the district court nor on appeal has Salamanca
explained how he might have met this standard. For one,
Salamanca admitted to violating his probation by pleading
guilty to burglary in Virginia. And for two, Salamanca merely
asserts that “he could have advocated for substantially less
time” at a revocation hearing. That is not enough to suggest he
had a colorable, complicated argument for which counsel was
needed. See, e.g.,
United States v. Eskridge, 445 F.3d 930,
932–33 (7th Cir. 2006); Warner v. Parke, 96 F.3d 1450 (7th
Cir. 1996) (unpublished). Indeed, an “admission to having
committed another serious crime creates the very sort of
situation in which counsel need not ordinarily be provided”
Scarpelli, 411 U.S. at
to a probationer facing revocation.
791, 93 S.Ct. 1756. Salamanca alleges nothing outside the
ordinary regarding his probation violation. And given this
lack of evidence and argument both before us and below, we
fail to see how any district court error was “obvious or clear.”
Crawford, 943 F.3d at 308.
Salamanca also argues he was denied counsel in violation
of state law. But we do not collaterally review state
criminal judgments for compliance with state law unless
noncompliance violates the Constitution. See
Wainwright
v. Goode, 464 U.S. 78, 86, 104 S.Ct. 378, 78 L.Ed.2d 187
(1983);
Gryger v. Burke, 334 U.S. 728, 731, 68 S.Ct.
1256, 92 L.Ed. 1683 (1948). Because Salamanca does not
sufficiently allege an unconstitutional denial of counsel under
Scarpelli, we reject his collateral attack. See
United
States v. Lalonde, 509 F.3d 750, 767–68 (6th Cir. 2007).
[3] Finally, Salamanca claims his sentence is unreasonable
because the district court's use of an unconstitutional
revocation *588 to calculate his sentence amounted to
unreasonable reliance on an “impermissible factor.” This
claim “boils down to the argument that” a defendant's
sentence is unreasonable unless the district court, through
collateral review, “independently confirms the validity of an
existing state sentence” impacting the defendant's sentence.
United States v. Napolitan, 830 F.3d 161, 167 (3d Cir. 2016).
Our resolution of Salamanca's collateral attack thus disposes
of his reasonableness challenge. Regardless, a factor that is
“impermissible” for a district court to consider is generally
one “that is neither enumerated in nor consistent with the
Sentencing Guidelines or 18 U.S.C. § 3553(a).” United
States v. Cabrera, 811 F.3d 801, 808 (6th Cir. 2016). The
guidelines expect district courts to calculate sentencing ranges
using prior convictions and sentences that are not invalid.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3App. 4

United States v. Salamanca, 821 Fed.Appx. 584 (2020)

U.S.S.G. § 4A1.1(a), Application Note 1. Salamanca's
revocation has never been, and cannot now be, invalidated.
The district court therefore did not rely on an impermissible
factor in imposing a low-end guidelines sentence of 130
months’ imprisonment.
Before concluding, a few words in response to the dissent.
We do not think it useful to issue a point-by-point rebuttal
of every claim the dissent musters from beyond Salamanca's
briefing, many of which—like the claims that
Custis was
merely interpreting the Armed Career Criminal Act and
that sentences do not carry finality interests—Salamanca's
counsel had the good sense not to raise. See

Coss, 532

U.S. at 404, 121 S.Ct. 1567 (applying
Custis in a case
that had nothing to do with the Armed Career Criminal Act);
Montgomery v. Louisiana, ––– U.S. ––––, 136 S. Ct. 718,
732, 193 L.Ed.2d 599 (2016) (states have “weighty interests
in ensuring the finality of convictions and sentences”). We
will leave it at this: as far as we can tell, no court has
read
Custis to permit a defendant to challenge at federal
sentencing anything more than the unconstitutional denial of
counsel in a prior state proceeding, the outcome of which is
being used to enhance his sentence. And Salamanca did not
sufficiently allege he was unconstitutionally denied counsel.
We deny as moot the motion to take judicial notice of state
court records, and we affirm.

McKEAGUE, J., delivered the opinion of the court in which
GIBBONS, J., joined. STRANCH, J. (pp. 588–93), delivered
a separate dissenting opinion.
JANE B. STRANCH, Circuit Judge, dissenting.
Guevara Salamanca's nearly 11-year sentence for illegal
reentry is based on an improperly calculated Guidelines
range. The majority opinion misapplies and misconstrues
Supreme Court precedent to affirm the sentence, which
was mistakenly enhanced by an unconstitutionally imposed
prior South Carolina sentence. Because a wrongly calculated
Guidelines range constitutes plain error and results in a
procedurally unreasonable sentence, I respectfully dissent.
As the majority opinion concedes, South Carolina “no doubt”
violated Guevara Salamanca's “right to due process under the
Constitution” when it imposed a 5-year sentence at a hearing

held without Guevara Salamanca or his attorney present.
Although the majority appreciates that South Carolina
subjected Guevara Salamanca to “unacceptable” due process
violations, it concludes that the South Carolina sentence
can properly be used to enhance his federal sentence under
Custis v. United States, 511 U.S. 485, 114 S.Ct. 1732, 128
L.Ed.2d 517 (1994).
*589

Custis, however, does not apply to this case. The

Government apparently agrees that
Custis is not where
our analysis should begin or end as it did not cite the case
Custis's holding is limited to
in its brief. That is because
collateral attacks on convictions used as predicates to apply an
Armed Career Criminal Act enhancement. In
Custis, the
Court “granted certiorari to determine whether a defendant
in a federal sentencing proceeding may collaterally attack
the validity of previous state convictions that are used to
enhance his sentence under the ACCA.”
511 U.S. at 487,
114 S.Ct. 1732 (emphasis added). Based on interpretation
of the ACCA's text, language not at issue here, the Court
concluded that “Congress did not intend to permit collateral
attacks [during sentencing] on prior convictions under §
924(e).”

Id. at 493, 114 S.Ct. 1732. As relevant in

Custis, the ACCA “provides for enhancement of the
sentence of a convicted firearms possessor who ‘has three
previous convictions ... for a violent felony or a serious
Id. at 485, 114 S.Ct. 1732 (quoting
18
drug offense.”
U.S.C. § 924(e)). In contrast, Guevara Salamanca's Guideline
range was enhanced based on language in the Sentencing
Guidelines (USSG):
(2) ... If, before the defendant was ordered deported or
ordered removed from the United States for the first time,
the defendant engaged in criminal conduct that, at any time,
resulted in—
(A) a conviction for a felony offense (other than an illegal
reentry offense) for which the sentence imposed was five
years or more, increase by 10 levels;
USSG 2L1.2 (emphasis added).
The majority opinion inappropriately maps
Custis's
interpretation of the ACCA onto this Guideline enhancement
without any analysis of its textual differences. For the ACCA

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4App. 5

United States v. Salamanca, 821 Fed.Appx. 584 (2020)

enhancement to apply, “the statute focuses on the fact of
the conviction,”
Custis, 511 U.S. at 490–91, 114 S.Ct.
1732 (emphasis in original), but the Guideline at issue here
considers the length of a sentence imposed,

USSG 2L1.2.

This difference is meaningful because the

Custis Court

Custis, 511
placed significant weight on finality interests,
U.S. at 497, 114 S.Ct. 1732, which do not apply when a
defendant challenges the constitutionality of a sentence, not
a conviction. “[E]ven after a defendant has served the full
measure of his sentence, a State retains a strong interest in
preserving the convictions it has obtained [because] States
impose a wide range of disabilities on those who have been
convicted of crimes, even after their release.”
Daniels v.
United States, 532 U.S. 374, 379, 121 S.Ct. 1578, 149 L.Ed.2d
590 (2001). But no such finality interests exist when it comes
to a constitutional challenge to a sentence. The routineness
of resentencing proves this point. See e.g.,
Phillips v.
White, 851 F.3d 567, 571 (6th Cir. 2017) (“requiring the
Commonwealth of Kentucky to resentence” a petitioner);
Cauthern v. Colson, 736 F.3d 465, 489 (6th Cir. 2013)
(ordering Tennessee to commence resentencing proceedings
for a petitioner);
2005) (same);
Cir. 2003);
2002);

Bates v. Bell, 402 F.3d 635, 650 (6th Cir.
Powell v. Collins, 332 F.3d 376, 402 (6th

DePew v. Anderson, 311 F.3d 742, 754 (6th Cir.

Isaac v. Grider, 211 F.3d 1269 (6th Cir. 2000).

Guevara Salamanca has already completed his
unconstitutionally imposed sentence, and he does not
challenge the underlying South Carolina conviction, only his
constitutionally infirm sentence. To the extent that South
Carolina has an interest in preserving the finality of Guevara
Salamanca's conviction because it may “impose a wide
range of disabilities on those who have been convicted of
crimes,” see
Daniels, 532 U.S. at 379–80, 121 S.Ct. 1578,
that interest is not threatened by allowing *590 Guevara
Salamanca to collaterally attack his sentence. In any event,
and as described below, South Carolina has since conceded
that its practice of holding a hearing in a defendant's absence
and without waiver of the right to counsel violates the United
States Constitution.
The majority opinion also fails to grapple with the distinctions
between applying a statute enacted by Congress and applying
a Guideline written by the U.S. Sentencing Commission.

“The Sentencing Commission unquestionably is a peculiar
institution within the framework of our Government.”
Mistretta v. United States, 488 U.S. 361, 384, 109 S.Ct.
647, 102 L.Ed.2d 714 (1989). And “the unique composition
and responsibilities of the Sentencing Commission give rise
to serious concerns about a disruption of the appropriate
balance of governmental power among the coordinate
Branches.”
Id. Such a separation of power concern is
implicated by Guevara Salamanca's sentence because his
South Carolina sentence increased his current sentence's
statutory maximum from 120 months to 240 months; the
district court ultimately sentenced him to 130 months,
which is above the appropriate statutory maximum once the
erroneous Guideline enhancement is removed.
Even assuming Custis's holding—which is based on statutory
interpretation of an ACCA enhancement addressing predicate
convictions—could be extended to a Guideline enhancement
concerned with predicate sentences, the majority misapplies
Custis. There are “rare cases in which no channel of review
was actually available to a defendant with respect to a prior
conviction, due to no fault of his own.”
Daniels, 532
U.S. at 383, 121 S.Ct. 1578. When a defendant cannot “be
faulted for failing to obtain timely review of a constitutional
claim,” a collateral attack at sentencing may be appropriate.
Lackawanna Cty. Dist. Attorney v. Coss, 532 U.S. 394,
405–06, 121 S.Ct. 1567, 149 L.Ed.2d 608 (2001); see also
Daniels, 532 U.S. at 383, 121 S.Ct. 1578. This exception
applies where a judgment is imposed without notice or an
opportunity to be heard because such a judgment “ ‘wants
all the attributes of a judicial determination; it is judicial
usurpation and oppression, and never can be upheld where
justice is justly administered.’ ”
Powell v. State of Ala.,
287 U.S. 45, 64, 53 S.Ct. 55, 77 L.Ed. 158 (1932) (emphasis
added) (quoting Galpin v. Page, 85 U.S. 18 Wall. 350, 369,
21 L.Ed. 959 (1873)). “It never has been doubted ... that notice
and hearing are preliminary steps essential to the passing
of an enforceable judgment, and that they, together with a
legally competent tribunal having jurisdiction of the case,
constitute basic elements of the constitutional requirement of
due process of law.”

Id. at 68, 53 S.Ct. 55.

Guevara Salamanca was not in custody for the South Carolina
conviction at the time of his federal sentencing; he lacked
the ability to attack his unconstitutional South Carolina

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5App. 6

United States v. Salamanca, 821 Fed.Appx. 584 (2020)

sentence through state appeal or federal habeas petition. Nor
can he be faulted for his inability to obtain review of his
constitutional claims—claims the majority opinion agrees
are “no doubt” meritorious—because he never received
notice of the date, time, or location of his initial revocation
hearing. South Carolina served Guevara Salamanca with a
Probation Citation, but in the blank for the date and time
of the revocation hearing, the Citation states “TBA.” For
the hearing's location, the Citation says only “Charleston.”
The form notified Guevara Salamanca that he had a right
to an attorney. Yet, on May 15, 2003, while he was in
custody in another state, South Carolina, without providing
adequate notice, imposed its 5-year sentence in his absence
and without counsel present. Given this procedure, Guevara
Salamanca did not have the opportunity *591 to pursue
direct or collateral attacks on his South Carolina sentence. His
current challenge to the sentence is appropriate.
At the time Guevara Salamanca received his South Carolina
sentence, the South Carolina Supreme Court allowed the State
to obtain criminal judgments in a defendant's absence and
State v. Cain, 277 S.C.
without appointed counsel present.
210, 284 S.E.2d 779, 779 (1981). According to then-current
South Carolina law, “a waiver of the right to counsel” could
“be inferred from a defendant's actions,” including a decision
not to appear in court.
Id. (citing
State v. Jacobs, 271
S.C. 126, 245 S.E.2d 606 (1978)). Here, however, Guevara
Salamanca never received notice of the hearing's date, time,
or specific location, so nothing could be inferred from his
absence about a waiver of rights, even under then-current
South Carolina law. And South Carolina has since recognized
that a defendant may not waive his right to be heard through
counsel based on conduct alone.
615, 825 S.E.2d 48, 51 (2019).

Osbey v. State, 425 S.C.

not knowing and intelligent.
Custis, 511 U.S. at 487, 114
S.Ct. 1732. Complete deprivation of Custis's constitutional
rights was not at issue. Custis's constitutional challenges
hinged on proving partial deprivations of his rights: he sought
to show that had his attorney advised him of the defense
of voluntary intoxication, “he would have gone to trial,
rather than pleaded guilty”; he also sought to show that
his attorney had not adequately advised him of his rights
regarding stipulated facts.

Id. at 488, 114 S.Ct. 1732.

Whether Custis had experienced partial deprivations of
his constitutional rights, moreover, was not obvious from
the face of the record. To resolve Custis's attacks on
his prior convictions, the sentencing court would have
had to “rummage through” “difficult to obtain,” possibly
nonexistent, “state-court transcripts or records.”
Id. at
496, 114 S.Ct. 1732. The Court feared that allowing
Custis's collateral attacks would have deprived the state-court
judgments of their “normal force and effect,” harming the
interest in promoting finality of judgments.
Id. at 497,
114 S.Ct. 1732. Custis “was still ‘in custody’ ” for his state
convictions when sentenced in federal court and “could have
attacked his state sentences in Maryland or through federal
habeas review.”

Id.

This reasoning is inapplicable here. First, the complete
constitutional deprivation of Guevara Salamanca's due
process rights is obvious on the face of the record. The PSR
says South Carolina imposed the sentence in absentia; the
Government does not dispute this fact; and South Carolina
has since conceded that its practice of revoking parole in
absentia violated the U.S. Constitution. There is no need
“to rummage through ... nonexistent or difficult to obtain
state-court transcripts or records” to determine that the

In any case, Guevara Salamanca's challenge is not a typical
collateral attack because the merits of his constitutional claim
are plain from the record before us. That the South Carolina
sentence was “no doubt” unconstitutionally imposed—and
doubly so, violating both Guevara Salamanca's underlying
due process right to be heard (through the lack of notice and
imposition of a sentence in absentia) and his secondary right

sentence was unconstitutionally imposed. Id. With respect
to finality, as previously described, any finality interests in
Guevara Salamanca's conviction are not threatened because
he challenges only the use of his sentence *592 as a predicate
for the Guideline enhancement, not the constitutionality of his
underlying conviction.

Custis does not resolve this case.

The majority opinion misconstrues the Custis exception in
another way. It concludes that because Guevara Salamanca's
right to be heard and right to counsel are based on the due
process clause rather than the Sixth Amendment, petitioner
is not entitled to attack the validity of the South Carolina

to counsel—also means

Objecting to the use of two prior state convictions as
ACCA predicate convictions, Custis argued that he received
ineffective assistance of counsel and that his guilty pleas were

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6App. 7

United States v. Salamanca, 821 Fed.Appx. 584 (2020)

sentence under

Custis. Though

right “established in

Gideon,”

Custis referenced the
511 U.S. at 496, 114

S.Ct. 1732, the majority's conclusion misreads

Custis by

ignoring that any right to counsel— Gideon or otherwise
—is grounded in the due process right to be heard. The Court
in
Custis acknowledged this principle, explaining that the
right to counsel is unique “because of our oftstated view that
‘[t]he right to be heard would be, in many cases, of little avail
if it did not comprehend the right to be heard by counsel.’
”
Id. at 494–95, 114 S.Ct. 1732 (quoting
U.S. at 68–69, 53 S.Ct. 55).

Powell, 287

The majority opinion ignores the building blocks that led
to “the right to have appointed counsel established in
Gideon,”
id., and imagines that the
Gideon right
is divorced from due process concerns. To the contrary, as
Gideon made clear, the Sixth Amendment's constitutional
mandate is incorporated through the Fourteenth Amendment's
due process guarantee.
792; see also

372 U.S. at 341–45, 83 S.Ct.

id. at 339, 83 S.Ct. 792. Tracing the

right established in
Gideon, the Supreme Court has
long explained that the right to counsel is derived from
fundamental due process rights. As the Supreme Court
Powell, if “a state or federal court were
explained in
arbitrarily to refuse to hear a party by counsel, employed by
and appearing for him, it reasonably may not be doubted that
such a refusal would be a denial of a hearing, and, therefore,
of due process in the constitutional sense.”

287 U.S. at

69, 53 S.Ct. 55;
id. at 72, 53 S.Ct. 55 (“the right to have
counsel appointed, when necessary, is a logical corollary from
the constitutional right to be heard by counsel.”).
Because the “right to counsel” is derived from “the right to
be heard,” Custis, 511 U.S. at 494–95, 114 S.Ct. 1732, and
Guevara Salamanca was entirely deprived of the right to be
heard here, regardless of whether he was entitled to counsel,
his case involves no extension of the right to collaterally
attack a prior judgment used to enhance a sentence.
Even applying the illogical rule—whereby violations of the
building-block “right to be heard” cannot be collaterally
attacked but derivative violations of the “right to counsel”
can be—the majority opinion still errs in its conclusion

that Guevara Salamanca lacked a right to counsel. In
“certain cases,” “fundamental fairness—the touchstone of
due process” requires “that the State provide at its expense
Gagnon
counsel for indigent probationers or parolees.”
v. Scarpelli, 411 U.S. 778, 790, 93 S.Ct. 1756, 36 L.Ed.2d
656 (1973). “Presumptively,” counsel should be provided
when a party is informed of a right to counsel; when the
party is incapable of representing himself; or when, even
where a violation is uncontested, a probationer could present
mitigating facts that are complex or otherwise difficult to
develop or present. Id. Guevara Salamanca received notice
of his right to counsel; he was incapable of representing
himself at the revocation hearing because he was incarcerated
in another State; and his mitigation strategy would have
been difficult to develop and present because it involved
understanding the collateral consequences of his immigration
status, convictions, and sentences. Nothing in the record
indicates that the South Carolina court was required to impose
a 5-year sentence upon revocation. Had Guevara Salamanca
been present with the assistance of counsel, he could *593
have been sentenced to less time. This complicated mitigation
issue is significant because, again, the validity of the length
of the sentence, not the constitutionality of the underlying
conviction, is at issue here.
Even if the majority opinion were correct that the
unconstitutional South Carolina sentence could properly
be used to enhance Guevara Salamanca's sentence here,
the district court still plainly erred under the tenets
of our procedural reasonableness review. The procedural
reasonableness doctrine is the backstop that ensures sentences
do not violate the basic due process requirements, and
“[r]egardless of whether the sentence imposed is inside
or outside the Guidelines range, the appellate court must
review the sentence under an abuse-of-discretion standard.”
Gall v. United States, 552 U.S. 38, 51, 128 S.Ct. 586, 169
L.Ed.2d 445 (2007). We must “ensure that the district court
committed no significant procedural error such as failing to
calculate (or improperly calculating) the Guidelines range,
treating the Guidelines as mandatory, failing to consider the
§ 3553(a) factors, selecting a sentence based on clearly
erroneous facts, or failing to adequately explain the chosen
sentence[.]”
Id. Here, even if the district court calculated
Guevara Salamanca's Guideline range correctly (which it did
not), the sentence it imposed was procedurally unreasonable
because the court gave no consideration to the South Carolina
due process violations, thus “a[.]”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Id .. That the district
7App. 8

United States v. Salamanca, 821 Fed.Appx. 584 (2020)

court may have ultimately selected the same sentence after
considering the relevant facts, does not make the current 130month sentence procedurally proper.
For all of these reasons, I respectfully dissent.
End of Document

All Citations
821 Fed.Appx. 584

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8App. 9

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
KNOXVILLE DIVISION
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
(For Offenses committed on or after November I, 1987)

V.

Case Number: 3:18-CR-00107-TWP-HBG(l)
OSCAR GUEVARA SALAMANCA
USM#76271-179

Jonathan A. Moffatt
Defendant's Attorney

THE DEFENDANT:
~

•
•

pleaded guilty to Count 1 of the Indictment.
pleaded nolo contendere to count(s) which was accepted by the court.
was found guilty on count(s) after a plea of not guilty.

ACCORDINGLY, the court has adjudicated that the defendant is guilty of the following offense:
Title & Section
8 U.S .C. §§ 1326(a), 1326(b)(2)

Nature of Offense
Illegal Reentry of a Previously Deported Alien
Subsequent to an Aggravated Felony

Date Violation Concluded Count
June 16, 2018

The defendant is sentenced as provided in pages 2 through 4 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984 and 18 U.S.C. 3553.

•
•

The defendant has been found not guilty on count(s).
All remaining count(s) as to this defendant are dismissed upon motion of the United States.

IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify the court and the United States attorney of any material change in the
defendant's economic circumstances.

June 24, 2019
Date of Imposition of Judgment

~n&L.u -F=-- .

Signature of Judicial Officer

.

Thomas W Phillips, United States District Judge
Name & Title of Judicial Officer

June 24, 2019
Date

Case 3:18-cr-00107-TWP-HBG Document 40 Filed 06/24/19 Page 1 of 4 PageID #: 104App. 10

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

OSCAR GUEVARA SALAMANCA
3: 18-CR-00 107-TWP-HBG( 1)

Judgment - Page 2 of 4

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of 130 months.
Upon release from imprisonment, the defendant is to surrender to a duly authorized immigration official for deportation in accordance
with the established procedures provided by the Immigration and Naturalization Act, 8 U.S.C. § 1101. If deported, you must comply
with the deportation order and remain outside the United States
Pursuant to USSG §5D 1.1 (c ), no term of supervised release is ordered.

IZI The court makes the following recommendations to the Bureau of Prisons:
The court will further recommend the defendant undergo a complete mental health evaluation and receive appropriate treatment
while serving his term of imprisonment. Additionally, it is recommended the defendant participate in educational classes and
vocational training to learn a trade or marketable skills while incarcerated. Lastly, the defendant be designated to an appropriate
facility as close to New York City, New York as possible.

IZI The defendant is remanded to the custody of the United States Marshal.

•

The defendant shall surrender to the United States Marshal for this district:

•
•
•

at

•

a.m.

•

p.m.

on

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
before 2 p.m. on .
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

•
•
•

RETURN
I have executed this judgment as follows:

Defendant delivered on
to
at
with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED ST ATES MARSHAL

Case 3:18-cr-00107-TWP-HBG Document 40 Filed 06/24/19 Page 2 of 4 PageID #: 105App. 11

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

OSCAR GUEVARA SALAMANCA
3: 18-CR-00107-TWP-HBG(l)

Judgment - Page 3 of 4

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments sheet of this judgment.

TOTALS

•
•

Assessment
$100.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$.00

An Amended Judgment in a Criminal Case {A0245C) will be entered
The determination of restitution is deferred until
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

•
•
•

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options under the Schedule
of Payments sheet of this judgment may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
the interest requirement is waived for the
fine
restitution
the interest requirement for the
fine
restitution is modified as follows:

•
•

•
•

•
•

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 11 0A, and 113A of Title 18 for offenses committed on or after September 13, 1994,
but before April 23, 1996.

Case 3:18-cr-00107-TWP-HBG Document 40 Filed 06/24/19 Page 3 of 4 PageID #: 106App. 12

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

OSCAR GUEVARA SALAMANCA
3:18-CR-00107-TWP-HBG(l)

Judgment - Page 4 of 4

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

~

•

~

Lump sum payments of$ 100.00 due immediately, balance due
not later than
, or
C,
in accordance with
D,
•
•
•

E, or

~

F below; or

C,

•

D, or

Payment to begin immediately (may be combined with

C

•
•

D

•

Payment in equal
(e.g., weekly, monthly, quarterly) installments of$
over a period
of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a term of
supervision; or

E

D

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

~

Special instructions regarding the payment of criminal monetary penalties:

B

•

•

F below); or

Payment in equal
(e.g., weekly, monthly, quarterly) installments of$
over a period
of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons'
Inmate Financial Responsibility Program, are made to U.S. District Court, 800 Market Street, Suite 130, Howard H. Baker, Jr.
United States Courthouse, Knoxville, TN, 37902. Payments shall be in the form of a check or a money order, made payable to U.S.
District Court, with a notation of the case number including defendant number.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

•

•
•
•

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint
and Several Amount, and corresponding payee, if appropriate.
• Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court
costs.

Case 3:18-cr-00107-TWP-HBG Document 40 Filed 06/24/19 Page 4 of 4 PageID #: 107App. 13

